  U.S. ENVIRONMENTAL PROTECTION AGENCY
  OFFICE OF INSPECTOR GENERAL



                                 Catalyst for Improving the Environment




EPA Needs Workload Data
to Better Justify
Future Workforce Levels
Report No. 11-P-0630

September 14, 2011
Report Contributors:                               Patrick Gilbride
                                                   Randy Holthaus
                                                   Raul Adrian
                                                   Lawrence Gunn
                                                   Kevin Lawrence




Abbreviations

EPA           U.S. Environmental Protection Agency
FTE           Full-time equivalent
FY            Fiscal year
GAO           U.S. Government Accountability Office
OAM           Office of Acquisition Management
OAR           Office of Air and Radiation
OB            Office of Budget
OCFO          Office of the Chief Financial Officer
OGD           Office of Grants and Debarment
OIG           Office of Inspector General
OMB           Office of Management and Budget
OPAA          Office of Planning, Analysis, and Accountability
OSWER         Office of Solid Waste and Emergency Response




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:     EPA Inspector General Hotline
  phone:     1-888-546-8740                                      1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                        Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                  Washington, DC 20460
                       U.S. Environmental Protection Agency 	                                               11-P-0630
                                                                                                    September 14, 2011
                       Office of Inspector General


                       At a Glance
                                                                             Catalyst for Improving the Environment


Why We Did This Review             EPA Needs Workload Data to Better Justify
We sought to determine
                                   Future Workforce Levels
whether the U.S. Environmental
Protection Agency (EPA) has         What We Found
collected and used workload
data to determine its workforce    EPA has not collected comprehensive workload data or conducted workload
size, and whether there are        analysis in about 20 years. EPA does not require program offices to collect and
workload models that EPA           maintain workload data, and the programs do not have databases or cost
could use or benefit from when     accounting systems in place to collect data on time spent on specific mission-
trying to determine workforce      related outputs. Federal guidance and standards emphasize the importance of
size.                              planning work to determine staffing needs. Office of Management and Budget
                                   guidance states that agencies should identify their workloads to help determine the
Background                         proper workforce size, and federal accounting standards require that agencies
                                   establish cost accounting systems to allow them to determine resources consumed
During the 1980s, EPA              for work performed. Without sufficient workload data, program offices are limited
conducted comprehensive            in their ability to analyze their workloads and justify resource needs, and EPA’s
workload analyses to determine     Office of Budget must base budget decisions primarily on subjective justifications
appropriate workforce levels.      at a time when budgets continue to tighten and data-driven decisions are needed.
Around the early 1990s, EPA
discontinued these analyses        Organizations of varying sizes and missions have used workload models for years
and, since then, it has adjusted   to justify resource needs. During our audit, we identified some basic concepts of
the size of its workforce via      workload modeling from which EPA could benefit. EPA would need to tailor such
incremental shifts. The U.S.       concepts to its own mission, structure, and culture.
Government Accountability
Office and the EPA Office of
                                    What We Recommend
Inspector General have reported
on the importance of basing        We recommend that the Chief Financial Officer conduct a pilot project requiring
workforce levels on workload.      EPA offices to collect and analyze workload data on key project activities. The
                                   Chief Financial Officer should use information from the pilot project, along with
                                   data from an ongoing contractor study, to issue guidance to EPA program offices
                                   on how to collect and analyze workload data, the benefits of workload analysis,
                                   and how the information should be used to prepare budget requests. EPA partially
                                   concurred with our recommendations in its response to our draft report. EPA
                                   stated that it needs time to collect more data and develop a final corrective action
For further information, contact
our Office of Congressional,
                                   plan with milestones for completion. Therefore, our report recommendations will
Public Affairs and Management      remain unresolved with resolution efforts in progress.
at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2011/
20110914-11-P-0630.pdf
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  WASHINGTON, D.C. 20460

                                                                              THE INSPECTOR GENERAL



                                         September 14, 2011

MEMORANDUM

SUBJECT: 	 EPA Needs Workload Data to Better Justify Future Workforce Levels
           Report No. 11-P-0630


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO: 	          Barbara J. Bennett
               Chief Financial Officer


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determination on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated direct labor and travel costs for this report are $451,155.

Action Required
The Agency partially concurred with recommendations 1 and 2, and these recommendations are
considered unresolved with resolution efforts in progress. Therefore, in accordance with EPA
Manual 2750 and ongoing resolution efforts, you are required to provide a written response to
recommendations 1 and 2, including a proposed corrective action plan, within 90 calendar days
of the report date. The response will be posted on the OIG’s public website, along with our
memorandum commenting on the response. The response should be provided as an Adobe PDF
file that complies with the accessibility requirements of Section 508 of the Rehabilitation Act of
1973, as amended. Please e-mail your response to Patrick Gilbride at Gilbride.Patrick@epa.gov.
The final response should not contain data that should not be released to the public; if the
response contains such data, the data for redaction or removal should be identified. We have no
objections to the further release of this report to the public. We will post this report to our
website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or Heist.Melissa@epa.gov; or Patrick
Gilbride, Product Line Director, at (303) 312-6969 or Gilbride.Patrick@epa.gov.
EPA Needs Workload Data to Better Justify                                                                                   11-P-0630
Future Workforce Levels



                                   Table of Contents 


Chapters
   1	    Introduction ...........................................................................................................      1


                 Purpose ..........................................................................................................    1     

                 Background ....................................................................................................       1     

                 Noteworthy Achievements ..............................................................................                4     

                 Scope and Methodology .................................................................................               4     


   2	    EPA Needs to Collect Workload Data to Conduct Workload Analysis ...........                                                   7


                 Federal Agencies Should Collect and Analyze Workload Data ......................                                      7

                 EPA Does Not Collect Data to Conduct Workload Analysis ...........................                                    8

                 EPA Has Attempted to Analyze Its Workload With Limited Results ...............                                        9

                 EPA Needs Processes or Systems to Track Time Spent on Projects ............                                          10 

                 EPA Cannot Assure Resources Are Planned or Allocated in the 

                      Most Efficient or Effective Manner .........................................................                    11 

                 Conclusions ....................................................................................................     11     

                 Recommendations .........................................................................................            12     

                 Agency Comments and OIG Evaluation .........................................................                         13 


   3	    Various Workload Modeling Concepts and Workload Models 

         Used by Other Organizations............................................................................... 14 


                 Basic Workload Modeling Concepts...............................................................                      14 

                 Examples of Workload Models .......................................................................                  15     

                 Conclusions ....................................................................................................     17     

                 Agency Comments and OIG Evaluation .........................................................                         17 


    Status of Recommendations and Potential Monetary Benefits................................. 19 




Appendices
   A	    Details on Scope and Methodology .................................................................... 20


   B	    Prior GAO and EPA OIG Reports......................................................................... 22 


   C     A
         	 gency Response ................................................................................................. 23 


   D     D
         	 istribution ............................................................................................................ 30

                                       Chapter 1

                                        Introduction
Purpose

               In June 2010, the Office of Management and Budget (OMB) issued guidance
               instructing each nonsecurity federal agency, such as the U.S. Environmental
               Protection Agency (EPA), to submit a budget request 5 percent below its
               discretionary spending total for fiscal year (FY) 2011. As federal budgets
               continue to tighten, the need for federal agencies to justify the size of their
               workforce is readily apparent. From 1999 to 2010, the number of full-time
               equivalent (FTE) positions that Congress authorized provided to EPA decreased
               over 5 percent, from 18,366 FTEs to 17,417.

               The purpose of this audit was to determine whether EPA has collected and used
               workload data to justify the size of its workforce. We also sought to identify any
               workload analysis concepts or models from which EPA could benefit.

Background
               For an organization to operate efficiently and effectively, it must know what its
               workload is. While there is no one exact definition of workload, it is commonly
               thought to be the amount of work assigned to, or expected to be completed by, a
               worker in a specified time period. Workload that is set too high or too low can
               negatively affect overall performance. The main objectives of assessing and
               predicting workload are to achieve an evenly distributed, manageable workload
               and to accurately determine the resource levels needed to carry out the work.1

               Workload data, for purposes of this report, consist of two components:
               (1) identified activities that must be conducted to complete a project or work
               effort, and (2) the actual or estimated time it takes to perform each of the
               identified activities. Workload data are a required component of workload
               analysis or modeling. Workload modeling is an analytical technique used to
               measure and predict workload. Because there is no one agreed-upon definition of
               workload, there is no one agreed-upon method of assessing or modeling
               workload.2

               During the 1980s, EPA conducted comprehensive workload analyses to determine
               appropriate workforce levels. EPA used approximately 70 models, and each

1
  EPA had not previously defined the term “workload.” As a result, we used common industry definitions 

pertaining to workload.

2
  EPA had not previously defined the term “workload modeling.” As a result, we used common industry

definitions pertaining to workload data and workload modeling.



11-P-0630                                                                                             1
                   model used different factors and equations to estimate workload. The models
                   focused on how regional offices implement programs. Because the workload was
                   spread across all program elements, each region typically played a part in every
                   model. EPA used the models each year to evaluate the need to adjust FTEs based
                   on changes from the preceding year. EPA then went through a consensus call
                   process to see whether the regions agreed on the results of the model. When the
                   regions reached consensus, EPA allocated the resources.

                   According to EPA personnel, around the early 1990s, the Deputy Administrator
                   decided that EPA would discontinue such analyses. EPA managers and staff
                   thought that the consensus process had become overly burdensome and time
                   consuming, and focused on small changes to FTEs. Another perception was that
                   regions did not always use the personnel as allocated. As EPA’s programs were
                   maturing and becoming more established, budgets began to level off. Since the
                   early 1990s, EPA has adjusted the size of its workforce via incremental shifts
                   from prior-year levels (table 1).

Table 1: Change in FTEs from 1999 to 2010
 Year   1999      2000      2001     2002      2003     2004     2005     2006     2007     2008     2009     2010
 FTE    18,366    18,100    18,000   17,832    17,802   17,909   17,759   17,631   17,560   17,324   17,252   17,417
Source: EPA Office of the Chief Financial Officer.

                   Many Offices Contribute to EPA’s Budget Formulation and Execution

                   The Office of Budget (OB) within the Office of the Chief Financial Officer
                   (OCFO) is responsible for formulating and executing the budget, and issuing
                   annual planning and budget memoranda. It also takes the lead on discussing and
                   determining workforce levels, evaluating emerging issues, and determining
                   administrative priorities.

                   EPA’s Office of Planning, Analysis, and Accountability (OPAA), along with OB,
                   works to integrate goal-based decisionmaking into the allocation of Agency
                   resources. The Agency does this through multiyear and annual planning in the
                   budget process. OPAA staff designs, develops, implements, and maintains an
                   Agency-level process for identifying, collecting, analyzing, and reporting
                   performance and resource information as required by the Government
                   Performance and Results Act.

                   The EPA Administrator and 12 Assistant Administrators in headquarters program
                   offices are national program managers who control resources. National program
                   manager responsibilities include planning, formulating, and justifying budgets for
                   national and regional EPA programs, adjusting national program budgets (e.g.,
                   headquarters/regional splits) as needed, and preparing program operating
                   guidance. EPA also has 10 Regional Administrators who are responsible for
                   regional administration and budget execution for all programs in the states and


 11-P-0630                                                                                                      2
            territories within their region. Regional Administrators coordinate with national
            program managers on budget formulation and execution.

            EPA Has Conducted Workload Studies in Last 5 Years

            Since 2005, EPA offices have studied workload issues at least six different times
            (table 2). However, for the most part, EPA has not used the findings resulting
            from the workload assessments. According to EPA, the results from the
            completed studies were not feasible to implement. These studies are discussed in
            greater detail in chapter 2.

            Table 2: EPA workload analysis studies since 2005

             EPA office              Conducted by       Date completed   Outcome
                                                                         Report: Management of
                                                                         Assistance Agreements at the
             Office of Grants                                            Environmental Protection Agency:
             and Debarment           Contractor         April 2005       Workload Analysis and Models
                                                                         Report: Environmental Protection
                                                                         Agency: Workload Assessment
             OCFO                    Contractor         June 2006        and Benchmarking Options
             Office of Research
             and Development         EPA + Contractor   November 2006    Administrative Efficiencies Project
             Office of Acquisition                                       No report produced; project
             Management              EPA                June 2007        discontinued
             Office of Solid
             Waste and
             Emergency                                                   Report: Superfund Workload
             Response                EPA + Contractor   December 2008    Assessment Report
                                                        Estimated        Contractor to provide suggestions
                                                        completion       on how EPA could develop a
             OCFO                    Contractor         September 2011   model
            Source: Data obtained from EPA offices listed.

            EPA paid contractors nearly $3 million related to five of the six workload studies
            conducted since 2005. Contractors produced reports for EPA in each of those five
            instances, but EPA generally did not take action.

            OMB Requires EPA to Reduce Its 2012 Budget Request by 5 Percent

            On June 8, 2010, OMB issued guidance to federal agencies regarding FY 2012
            budget submissions. OMB instructed each nonsecurity agency, such as EPA, to
            submit a budget request 5 percent below its discretionary spending total for
            FY 2011. Rather than reducing spending across the board, OMB informed
            agencies that they were to restructure operations by (1) eliminating programs that
            have a low impact on an agency’s mission so that resources can be freed up to
            continue investments in priority areas even as overall budgets are constrained,
            (2) reengineering staffing plans and other processes to squeeze waste out of
            existing operations and produce better outcomes, and (3) focusing management


11-P-0630                                                                                                 3
            attention on high-priority performance goals to better deliver services to the
            American people using available resources. OMB’s guidance also stated that the
            FY 2012 budget submissions should include analysis and evidence showing the
            effects of any reductions and explaining why reductions were warranted.

      Noteworthy Achievements
            EPA has taken steps to improve workforce planning. In 2009, OCFO awarded a
            contract to study best practices for identifying appropriate workforce size based
            on workload. The study is targeting key EPA functions: (1) regulatory
            development, (2) scientific research, (3) enforcement, (4) financial management,
            (5) environmental monitoring, and (6) permitting. The results of this effort,
            however, have yet to be determined.

      Scope and Methodology
            We conducted our audit from March 2010 to March 2011 in accordance with
            generally accepted government auditing standards. Those standards require that
            we obtain sufficient, appropriate evidence to provide a reasonable basis for our
            findings and conclusions based on our evaluation objectives. We believe that the
            evidence obtained provides a reasonable basis for our findings and conclusions
            based on our objectives.

            During our work, we reviewed:

               	 Laws, regulations, guidance, and other background data related to
                  workload and workforce planning, including OMB circulars and Office of
                  Personnel Management documents
                National program manager guidance from the program offices
                EPA’s Annual Commitment System as well as some regional annual
                  commitment documents
               	 Budget justification documents that the Office of Air and Radiation
                  (OAR), the Office of Solid Waste and Emergency Response (OSWER),
                  and the Office of Water (OW) submitted to OCFO for FYs 2009–2011
                Prior studies and reports on workload analysis that EPA and its contractors
                  conducted
                Prior audit work performed by the U.S. Government Accountability Office
                  (GAO) and EPA’s Office of Inspector General (OIG)

            During our audit, we interviewed managers and staff from seven headquarters
            offices and four regions. We also interviewed the Associate Administrator for
            OMB’s Office of Federal Procurement Policy. See appendix A for further details
            on our scope and methodology, including a list of the offices we visited.




11-P-0630                                                                                       4
            Prior Audit Reports

            Prior reports by both GAO and the EPA OIG have highlighted the importance of
            managing resources and workload effectively, and identified instances in which
            inadequate resource management hindered EPA in fulfilling its mission. See
            appendix B for a detailed listing of such reports.

                   GAO

                   In GAO-10-413, Workforce Planning: Interior, EPA, and the Forest
                   Service Should Strengthen Linkages to Their Strategic Plans and Improve
                   Evaluation, issued in March 2010, GAO found that EPA’s process for
                   allocating resources involved making annual incremental adjustments to
                   prior-year allocations and did not directly link to workforce plans. GAO
                   concluded that EPA has not comprehensively analyzed its workload and
                   workforce to determine the optimal numbers and distribution of staff
                   Agency-wide since the late 1980s.

                   In GAO-09-434, Environmental Protection Agency: Major Management
                   Challenges, issued in March 2009, GAO reported that EPA had struggled
                   for several years to identify its human resource needs and to deploy its
                   staff throughout the country in the most beneficial manner. GAO found
                   that EPA’s process for budgeting and allocating resources did not fully
                   consider the Agency’s current workload, and that in preparing requests for
                   funding and staffing, EPA made incremental adjustments largely based on
                   an antiquated workforce planning system that did not reflect a bottom-up
                   review of the nature or distribution of the current workload. Moreover,
                   EPA’s human capital management systems had not kept pace with
                   changing legislative requirements and priorities, changes in environmental
                   conditions in different regions of the country, and the much more active
                   role that states now play in carrying out day-to-day-activities of federal
                   environmental programs.

                   EPA OIG

                   In OIG Report No. 11-P-0031, EPA Needs to Strengthen Internal Controls
                   for Determining Workforce Levels, issued December 20, 2010, we
                   concluded that EPA’s policies and procedures do not include a process for
                   determining employment levels based on workload as prescribed by OMB.
                   We recommended, among other things, that OB amend its guidance to
                   require that the Agency complete a workload analysis for all critical
                   functions to support the Agency’s budget request for FTEs.

                   In OIG Report No. 2005-P-00006, Office of Acquisition Management Can
                   Strengthen Its Organizational Systems issued February 17, 2005, we
                   concluded that EPA’s Office of Acquisition Management (OAM) needed


11-P-0630                                                                                    5
            to perform workload and workforce analysis to identify FTE and skill
            gaps. The report stated that OAM did not have data to measure its progress
            toward achieving its vision of being the preferred business partner for all
            EPA contracts. OAM also could not determine the percentage of EPA
            contracts managed by its own personnel.




11-P-0630                                                                            6
                                  Chapter 2

            EPA Needs to Collect Workload Data to 

                 Conduct Workload Analysis 

            EPA has not collected comprehensive workload data or conducted workload
            analysis in about 20 years. EPA does not require program offices to collect and
            maintain workload data, and the programs do not have databases or cost
            accounting systems in place to collect data on time spent on specific mission-
            related outputs. Federal guidance and standards emphasize the importance of
            planning work to determine staffing needs. OMB guidance states that agencies
            should identify their workloads to help determine the proper workforce size, and
            federal accounting standards require that agencies establish cost accounting
            systems to allow them to determine resources consumed for work performed.
            Without sufficient workload data, program offices are limited in their ability to
            analyze their workloads and justify resource needs, and EPA’s OB must base
            budget decisions primarily on subjective justifications at a time when budgets
            continue to tighten and data-driven decisions are needed.

Federal Agencies Should Collect and Analyze Workload Data
            We reviewed federal guidance and standards pertaining to preparing budgets.
            These documents address the importance of workload in determining resource
            needs. The Statement of Federal Accounting Standards No. 4 also contains
            information relating to the need for agencies to account for the cost of the services
            they provide, including the cost of labor (i.e., FTEs consumed).

            OMB Circular A-11, Preparation, Submission and Execution of the Budget,
            issued July 2010, suggests that calculations should be made to convert workload
            estimates to required personnel. Those estimates should include available work
            hours per employee. The circular specifically states that budget submissions
            “must identify the human capital management and development objectives, key
            activities, and associated resources that are needed to support agency
            accomplishment of programmatic goals.”

            OMB Guidance Memorandum M-09-26, Managing the Multi-Sector Workforce,
            issued July 2009, instructs agencies to determine the mix of skills and amount of
            labor needed for the agency to perform efficiently and effectively. Agencies
            should take into account the mission, functions, desired performance standards,
            and workload. The memorandum also states that each federal agency should
            conduct a pilot human capital analysis of at least one program, project, or activity
            for which the agency has concerns about the extent of reliance on contractors. The
            pilot will provide agencies with an opportunity to develop processes and practices
            that support the broader vision of multisector workforce management.


11-P-0630                                                                                       7
            The Statement of Federal Financial Accounting Standards Number 4—issued by
            the Federal Accounting Standards Advisory Board—relates to managerial cost
            accounting concepts and standards for the federal government. It states that
            information on the costs of program activities can be used as a basis to estimate
            future costs in preparing and reviewing budgets. The statement requires federal
            agencies to establish cost accounting systems to allow them to determine the full
            cost, in terms of resources consumed, of the services and products they provide.

EPA Does Not Collect Data to Conduct Workload Analysis
            Workload data generally do not exist within the program offices we reviewed.
            Although program offices were aware of overall work outputs they plan to
            accomplish in a given year, they were not able to determine resource needs at the
            task level based on quantitative analysis. For example, a program office may
            know the number of permits it needs to issue in a given year, but it does not have
            data relating to the resources used to issue specific types of permits in the past.

            We reviewed budget documents for FYs 2009–2011 that OAR, OW, and OSWER
            prepared to support their budget requests. We found that those program offices
            submitted budget requests based on subjective estimates; we were not provided
            any form of quantitative support for the requests. We found little correlation
            between program office requests and OCFO’s budget recommendations. The lack
            of program office workload data contributed to the differences between the
            offices’ proposed estimates and the FTE levels that OB approved.

            For example, in FY 2009 budget documents, OAR cited potential negative
            impacts that a reduction in funding would cause to its air toxics program.
            However, OAR did not provide any quantitative analysis of the program’s
            operations and FTE costs with its narrative. For FY 2010, OAR proposed
            increased funds and FTEs for the Agency’s homeland security program, one of
            the EPA Administrator’s top priorities. However, OAR again did not support the
            proposed increases with workload data or an analysis of the program’s costs. This
            lack of support was evident in all the budget documents we reviewed for OAR,
            OW, and OSWER. Without workload data, EPA cannot determine, and
            quantifiably support in budget documents, the resource needs for planned work.

            EPA has prepared estimates in recent years to support budget requests for
            additional FTEs in some high-priority work areas, including energy permitting,
            Chesapeake Bay, and mountaintop mining. Those estimates were also based on
            subjective formulas developed by subject-matter experts. Relying solely on
            subject-matter experts, without using actual workload data, increases the
            likelihood for inaccurate resource projections.

            For example, Region 8 experts initially determined that the region needed about
            20 FTEs to alleviate a growing backlog of energy permits. In the end, however,
            Region 8 was able to eliminate the backlog with just six new FTEs that OCFO

11-P-0630                                                                                         8
            provided to the region. Region 8 worked with OB and other experts nationally to
            develop its estimate; however, they had no quantifiable data on past resource
            needs for energy permitting from which to draw. Region 8 does not have a system
            in place to track the time and cost for energy permitting activities and could have
            developed a better national estimate if it and each region had actual data on
            resource availability and needs.

            We also identified isolated examples of data systems that some EPA water
            programs could use for workload analysis. Region 3’s Water Protection Division
            has been using a Permit Tracking System since 2000. While the system does not
            track the number of hours spent by Region 3 personnel on individual tasks, the
            system does track the different stages and milestones of the permit review
            process. The system contains comprehensive technical information on the water
            permits themselves, and identifies the permit reviewer and the review workloads
            and backlogs based on permit expiration dates. In another example, Region 4’s
            Water Protection Division developed a pilot workload database that tracks
            resources assigned to projects for endangered watersheds. The database has been
            in use for about a year and contains information on staff and FTEs assigned to
            each watershed project. Region 4 Water Protection Division supervisors update
            this information every time they reach a project milestone. EPA personnel,
            however, told us that they did not use data from these systems to support the
            resource estimates we reviewed. According to EPA, while these systems were
            designed to track work progress, they do contain data that could be useful for
            conducting workload analysis.

EPA Has Attempted to Analyze Its Workload With Limited Results
            EPA has taken steps in recent years that indicate it understands the importance of
            having a workload analysis process. Various EPA offices have studied how to
            develop methods for analyzing workload. For the most part, however, EPA has
            not used the results of those efforts.

            In 2005, EPA’s Office of Grants and Debarment (OGD) contracted with a firm to
            identify the workload drivers that affect the work of grant specialists and project
            officers. EPA paid the contractor about $220,000, and OGD took action on certain
            suggestions from that report. However, OGD did not adopt a comprehensive
            process for collecting and analyzing workload data as a result of the study.
            Although the OGD director placed some value in the study and the contractor’s
            suggested workload model, he acknowledged during our field work that the study
            needs to be updated. One regional grants manager stated that he did not believe
            the numbers generated by the study’s suggested model were reliable and that the
            model did not allow for changes, such as the addition of new programs. The OGD
            director told us that his office is currently working to develop updated alternatives
            for analyzing its workload.




11-P-0630                                                                                        9
            In 2006, OCFO contracted with a firm that issued a report to EPA on workload
            and workforce planning methods used by nine federal agencies. The contractor,
            which EPA paid $92,000, recommended that EPA draw from the ideas and
            methodologies in the study to develop its own approach for assessing staffing in
            relation to workload. OCFO did not take action on that report recommendation.
            The OB deputy director told us that her office felt additional information was
            needed to make any decisions on this matter. As a result, OB contracted in 2009
            with another firm for an additional study.

            In 2006, OSWER began a 2-year effort involving over 200 EPA managers and
            staff to study its workload, issuing a report in December 2008. OSWER paid a
            contractor over $1.7 million for assistance with the study, in addition to the time
            and cost of over 200 EPA employees who participated. The study found that
            regional staffing levels were not proportional to future workload demands.
            OSWER ultimately did not take action on the results of the study. The Superfund
            board of directors decided that moving or rebalancing personnel resources across
            regions would likely produce substantial disruption. The board stated that such a
            disruption could cause a decrease in national output, at least in the short term, and
            was unadvisable.

            In 2007, OAM spent about a year trying to develop a workload model for its
            contracting staff, but was unsuccessful and abandoned the effort. OAM informed
            us that its attempted model was too cumbersome to use because there were too
            many variables, and that it would not have provided reliable output.

            In 2009, OCFO contracted with a firm to summarize the pros and cons of
            different processes and issues relating to workload analysis. The basic contract
            has a value of $607,024, with options that can be exercised that would raise the
            total to $713,369. According to EPA, the contractor will be summarizing the pros
            and cons of different processes and issues relating to workload analysis. EPA
            hopes to better understand some of the variables (functions, techniques,
            structures, etc.) related to workload analysis not currently being used at EPA
            during work planning. The contractor is about 6 months behind schedule, and
            EPA currently expects the work to be completed by September 2011.

EPA Needs Processes or Systems to Track Time Spent on Projects
            Systemic workload data do not exist at EPA because most of the Agency’s
            programs either do not have or do not use databases or cost accounting systems
            for employees to charge their time to specific activities. To meet federal financial
            accounting standards, EPA tracks costs at a high level—the program/project level.
            EPA currently tracks costs for about 140 program/projects. A program is defined
            as what EPA does based upon specific statutory authority, and a project is defined
            as a significant task or problem the Agency is addressing. Examples of current
            program/projects include Indoor Air: Radon Program, Superfund: Enforcement,
            and Research: Water Quality. Within most of these 140 program/projects, EPA


11-P-0630                                                                                      10
            personnel are engaged in many activities, resulting in many significant outputs
            and deliverables. EPA’s tracking of costs at the program/project level is at too
            high a level to be useful for workload analysis.

            EPA managers indicated that doing a comprehensive workload analysis like those
            done decades ago, including tracking the hours that people work on specific
            activities, would be an inefficient use of limited EPA resources. We found,
            however, that when required, the Agency tracked and accounted for each hour
            spent by over 240 employees on the Deepwater Horizon oil spill response effort
            in the Gulf of Mexico in 2010. In June 2010, the Region 6 Comptroller’s office
            issued guidance to employees on how to charge time spent on the oil spill
            response. EPA’s funding to respond to the oil spill came from a reimbursable
            authorization that the U.S. Coast Guard provided. According to the Region 6
            guidance, the authorization established allowable tasks and a site identification
            code to enable the region to capture costs associated with the oil spill response.
            The guidance stated the importance of being able to track and account for all
            expenditures for potential cost recovery from responsible parties. According to
            data that the Region 6 Comptroller provided us, as of the end of August 2010,
            over 240 employees had charged approximately 32,067 hours, or 15.4 FTEs, to
            the oil spill response. This example indicates EPA’s ability to track time spent on
            projects and activities when it is required.

EPA Cannot Assure Resources Are Planned or Allocated in the
Most Efficient and Effective Manner
            Without sufficient workload data, program offices have limited ability to analyze
            workload and determine adequate FTE levels to carry out their mission. Program
            offices also cannot analytically justify the need for more resources or assure
            existing resources are used in the most efficient and effective manner. As a result,
            OB has to rely primarily on subjective justifications at a time when budgets
            continue to tighten and data-driven decisions are needed.

            Sound workload analysis based on sufficient and reliable data can help assure that
            the highest-priority work is completed. Workload analysis could also highlight
            areas where EPA could use resources more effectively.

Conclusions
            EPA is basing its resource needs primarily on subjective data. It does not have the
            systems to collect and maintain quantifiable workload data. Program managers
            believe they cannot influence budget allocations and believe developing models
            or data systems would not be a wise use of time. Therefore, programs continue to
            depend on experienced staff and subject-matter experts to estimate workload and
            resource needs. We acknowledge the high value of experienced staff and subject-
            matter experts, and believe their input should always be an important component


11-P-0630                                                                                      11
            of workload analysis. However, discretionary budget allocations are better
            justified when supported by accurate, timely, and complete data.

            In the examples we reviewed, EPA’s efforts to identify its workload were too
            broad, resource intensive, and/or complex. For example, the current contract that
            OCFO is using is designed to provide feedback that will broadly look at EPA as a
            whole from a top-down management perspective. We believe EPA would benefit
            from a bottom-up approach. Workload should be collected and analyzed first at
            the level at which it is conducted. That information can then move upward
            through management until a budget request is submitted. We also believe that a
            broad, one-size-fits-all approach is unrealistic for a diversely structured agency
            like EPA. We believe that this broad approach is a primary reason prior attempts
            were unsuccessful and ultimately discontinued.

            In addition, we learned that workload models containing too many variables
            (workload drivers) were complex and did not provide reliable data. Therefore,
            workload analysis may be more useful if the process is simplified and carried out
            at a project level within the larger programs. However, EPA cannot undertake
            workload modeling without workload data.

            Considering the current economic climate and declining budgets, workload
            analysis and resource estimates must be as accurate as possible. Further, when
            EPA’s expert employees retire or leave for other reasons, substantial workload
            knowledge is potentially lost. Therefore, EPA programs should develop systems
            to collect and maintain quantifiable workload data. This information, combined
            with input from EPA’s experts, will substantially improve the accuracy and
            transparency of workload analysis.

Recommendations
            We recommend that the Chief Financial Officer:

                   1.	 Conduct a pilot project requiring EPA organizations to collect and
                       analyze workload data on key project activities.

                   2.	 Use information learned from the pilot and the ongoing contracted
                       workload study to issue guidance to EPA program offices on:

                           a. 	 How to collect and analyze workload data
                           b. 	 The benefits of workload analysis
                           c. 	 How this information should be used to prepare budget
                                requests




11-P-0630                                                                                    12
Agency Comments and OIG Evaluation
            EPA partially concurred with both of our recommendations. Regarding
            recommendation 1, EPA stated that it is following up on recent air and water
            workload pilot projects conducted by Regions 1 and 6, and it is continuing to look
            at how other organizations collect and analyze workload data and use workload
            methodologies.

            Regarding recommendation 2, EPA stated that the ongoing workload
            survey/benchmarking study, to be completed in September 2011, will include
            input from over 1,000 managers, informational interviews with other agencies that
            manage similar functions, and discussions with over a dozen similar agencies
            about what workload tools they employ. EPA also said that it would explore the
            use of external variables such as population, land area, gross domestic product,
            and/or other reliable and available environmental or public data to help better
            understand major drivers for EPA’s geographic workload.

            EPA also stated that it would use perspectives gained from the pilots, its
            contractor study, and geographic analyses to develop intelligent, cost-effective
            options for strengthening its planning processes. EPA stated that its paramount
            goal is to consider how to best use increasingly limited resources when making
            decisions and conducting evaluations. However, OCFO also stated that it cannot
            commit to issuing detailed guidance to the rest of the Agency on collecting and
            using workload data until it has developed or found viable methodologies for
            EPA’s functions.

            We recognize that EPA is in the process of studying this issue and is taking steps,
            including its recent pilots in Region 1 and Region 6, that will help the Agency
            make decisions regarding how best to allocate its resources in the future. We also
            believe, however, that EPA should fully commit to analyzing the Agency’s
            workload, since EPA has revisited this issue with various studies over the last
            6 years. EPA must provide the OIG a specific plan within 90 days after issuance
            of this report that includes milestone dates for completing its corrective actions.
            Until EPA does so, we will consider our recommendations to be unresolved.




11-P-0630                                                                                    13
                                      Chapter 3

             Various Workload Modeling Concepts and 

            Workload Models Used by Other Organizations 

              Organizations of varying sizes and missions have used workload models for years
              to analytically justify resource needs. Federal and state agencies, such as the U.S.
              Department of State, the Internal Revenue Service, the U.S. Army, and the
              Washington State Department of Ecology, have used workload models to help
              determine resource needs.3 Private-sector entities such as hospitals, academic
              institutions, and firms in other industries have also used workload models. Based
              on concepts used by other organizations, EPA could benefit from using a model
              or models tailored to its own mission, structure, and culture.

Basic Workload Modeling Concepts
              We reviewed examples of workload analysis from external sources, including the
              State Department and the Washington State Department of Ecology. We also
              looked at EPA’s prior efforts to study its own workload. Finally, we consulted
              various publications on the subject of workload analysis. As a result, we identified
              the following key concepts that EPA should consider as it decides how best to
              develop a model or models for its use:

                    Workload models help to logically and analytically justify requests for
                     resources.
                   Responsible officials must clearly communicate the need for, and impact
                     of, resource requests.
                  	 Three common elements in most workload models, in sequence, are
                     identifying activities (individual tasks necessary to meet the
                     driver/output), identifying drivers (measurable events or outputs
                     associated with a particular function), and determining the duration (the
                     time it takes to accomplish an activity).
                  	 Durations can be determined using several different methods and can be
                     affected by many variables. For transactional-type activities, developing a
                     guide for estimating average times could be helpful. For activities of a less
                     predictable nature, the best option is to track duration data over time to
                     develop realistic estimates based on history.
                  	 An organization should determine its mission-critical functions first and
                     conduct workload analyses for them. Administrative support positions
                     should be analyzed last, because they generally depend on the functions
                     and workload that they support.

3
 EPA’s 2006 contracted study on workload assessment and benchmarking documented the methods used
by the Internal Revenue Service and the U.S. Army.

11-P-0630                                                                                       14
               	 It is crucial to have a good understanding of which tasks can be quantified,
                  and which are more qualitative or subjective in nature.
               	 In a complex organization, such as EPA, a single, standard workload
                  model is not practical or feasible. Rather, local units should adopt an
                  approach that fits their mission and operations.
               	 A consistent timeframe should be established for running the models,
                  perhaps every 2 years. Longer horizons generally will result in less
                  accurate projections.

Examples of Workload Models
            We reviewed some examples of workload models from sources outside of EPA as
            well as the attempts that EPA made to analyze workload issues. Below are some
            concepts and details from the U.S. Department of State and the Washington State
            Department of Ecology examples, as well as two EPA examples. These examples
            incorporate concepts that EPA should consider when developing any future
            models.

            State Department

            The State Department has used workload analysis to justify its resource needs
            since 1996. In a June 2006 benchmarking study conducted for EPA by a
            contractor, State was considered a valid benchmark for EPA. In fact, the
            contractor identified the State Department in its study as most relevant to EPA
            based on three main criteria: agency functions, data update cycles, and
            predictability of workload changes. State had about 17,000 domestic employees in
            2006, about the same number as EPA. Key among the features of the State
            Department model are:

                      Employing separate models for domestic staff and overseas staff
                      Completing the administrative/support functions in its models last,
                       after the mission-related parts of the model are determined
                      Running its models every 2 years

            The State Department was able to use its models to analytically justify the need
            for more resources and received them during 2002–2004.

            Washington State

            In 2001, the Washington State Department of Ecology produced an assessment of
            the workload required to meet a 15-year schedule of work to address polluted
            waters, as contained in a memorandum of agreement with EPA. As a followup,
            the department again assessed workload in 2006, resulting in an updated set of
            recommendations and proposals for resource needs to more efficiently achieve its
            workload demands. Other features of this study were that the department:


11-P-0630                                                                                      15
                     Used raw data to identify the number of impaired water bodies
                     Determined which measures could be quantified
                     Developed formulas differing by complexity or type of activity to
                      estimate resources for some of the tasks that could be quantified
                    Used past experience to determine FTE needs for some of its work
                      relating to impaired waters
                   	 Established an accountability team charged with improving the flow of
                      communication and establishing a system for tracking and maintaining
                      workload data

            EPA’s Superfund Workload Assessment

            OSWER conducted a study beginning in 2006 of its Superfund program
            resources. Some of the main features of the study were that OSWER:

                   	 Used a rigorous methodology that broke down the analysis into the
                      following categories:
                               Work elements—activities with a common purpose/output
                               Outputs—the end product for each work element
                               Pricing factors—an estimated measure of the effort
                                  required, expressed in work years
                    Used available EPA databases when possible
                    Grouped sites by resource intensity (low, medium, high)
                    Assigned a full pricing factor to planned work elements, and half of a
                      pricing factor to work elements underway, to determine annual work
                      years needed per site
                   	 Estimated the total work years for a typical site by combining the
                      above data on work elements and pricing factors with activity data in
                      databases
                   	 Looked at workload as a whole, including in all the regions, and then
                      distinguished between work to be performed by in-house resources
                      versus through contracts and grants
                   	 Developed estimates of FTE needs based on workload allocation
                      projections for each of the 10 regions

            EPA’s Study on Assistance Agreements Workload

            OGD contracted out for a study related to workload issues for managing
            assistance agreements. The contractor’s report, issued in April 2005, produced
            recommendations aimed at achieving efficiencies by streamlining the workload of
            grants specialists and project officers. The contractor also provided templates for
            OGD to use in determining future allocations of work and resources for grants
            specialists and project officers. Relevant features of this study were that EPA:

                   	 Developed separate grant specialist and project officer workload
                      models for EPA

11-P-0630                                                                                    16
                   	 Measured all activities associated with the preaward, award, and
                      postaward monitoring phases for grants, cooperative agreements, and
                      interagency agreements, totaling about 325 total activities
                   	 Categorized activities as either core, noncore, or other activities
                   	 Used data from EPA’s Integrated Grants Management System, EPA
                      documents such as grants management policies, interviews with EPA
                      personnel, Web-based surveys of grant specialists and project officers,
                      an organizational questionnaire for grants management officers, and
                      knowledge of practices in other agencies

Conclusions
            Workload analysis is the key to attaining a meaningful, data-driven, resource
            allocation system. Organizations of various sizes, including some larger than
            EPA, in both the private and public sectors, have successfully used workload
            modeling for many years to justify their decisions on how resources are allocated
            and used. In the last 20 years, EPA’s mission and workload have changed and
            expanded significantly. In an era of diminishing budgets, EPA should implement
            policies that promote and support workload data gathering and analysis at the
            program and regional levels. Such policies will result in more effective resource
            allocation decisions.

Agency Comments and OIG Evaluation
            In its response, EPA stated that it does not dispute that many organizations use
            detailed workload models to plan resources for specific, clearly defined, and
            repeatable tasks. EPA stated that what is at issue is whether EPA can cost-
            effectively adapt existing models or develop new models for the many different
            functions and processes that EPA manages. EPA is looking for workable models
            and has piloted efforts in Region 1 and 6, but stated that designing useful
            workload models for complex, nonrepeatable, and evolving tasks is difficult and
            expensive. In its most recent pilot, EPA Region 6 reported that staff devoted
            160 hours to analyze the workload of 35 FTE. EPA stated that if extrapolated for
            EPA as a whole, analyzing the workload of the Agency’s FTEs would require
            37 FTE and nearly $5 million in payroll costs. As a financial manager, EPA said
            that it must the weigh the costs of developing such systems with the benefits to
            informing decisionmaking.

            We agree that any models that EPA uses in the future should be practical and cost
            effective. That said, if EPA’s extrapolated figures are accurate, that would mean
            that EPA could potentially spend 37 FTE out of 17,417 (2010 FTE level), or just
            0.2 percent of EPA’s total FTE, to determine the best allocation of the other
            99.8 percent of FTE. Further, the pilots that EPA conducted in Region 1 and
            Region 6 were resource intensive because there was no process in place to gather
            the data, and the data were not readily available. As workload data are more


11-P-0630                                                                                   17
            routinely collected and tracked, and methodologies for analyzing it are improved,
            the burden for conducting such analyses should be reduced in future years.




11-P-0630                                                                                  18
                               Status of Recommendations and
                                 Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                Planned
 Rec.     Page                                                                                                 Completion   Claimed    Agreed To
 No.       No.                           Subject                           Status1      Action Official           Date      Amount      Amount

   1       12     Conduct a pilot project requiring EPA organizations to     U       Chief Financial Officer
                  collect and analyze workload data on key project
                  activities.

   2       12     Use information learned from the pilot and the ongoing     U       Chief Financial Officer
                  contracted workload study to issue guidance to EPA
                  program offices on:
                        a.    How to collect and analyze workload data
                        b.    The benefits of workload analysis
                        c.    How this information should be used to
                              prepare budget requests




O = recommendation is open with agreed-to corrective actions pending
C = recommendation is closed with all agreed-to actions completed
U = recommendation is unresolved with resolution efforts in progress




11-P-0630                                                                                                                                      19
                                                                                    Appendix A

                 Details on Scope and Methodology
We conducted our audit from March 2010 to January 2011 in accordance with generally
accepted government auditing standards. Those standards require that we obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
evaluation objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our objectives.

During our audit, we reviewed:

   	 Laws, regulations, guidance, and other background data related to workload and
      workforce planning, including OMB circulars and Office of Personnel Management
      documents
    National program manager guidance from the program offices
    EPA’s Annual Commitment System, as well as some regional annual commitment
      documents
    Budget justification documents that OAR, OSWER, and OW submitted to OCFO for FYs
      2009–2011
    Prior studies and reports on workload analysis that EPA issued or had conducted by
      contractors
    Prior audit work performed by GAO and the EPA OIG

During our audit, we conducted site visits and interviewed managers and staff from the following
seven headquarters offices and four regions:

      OCFO, including OB and OPAA
      Office of Administration and Resources Management, including the Office of Human
       Resources 

      OAR

      Office of Chemical Safety and Pollution Prevention

      Office of Research and Development 

      OSWER

      OW

      Regions 3, 4, 6, and 8 


We selected the program offices and regions we audited based on a variety of factors, including
size and mission of the program office, as well as examples of workload analysis that EPA staff
suggested we review. We also interviewed personnel from Region 4 and Region 6 about the level
of FTEs they dedicated to the Deepwater Horizon oil spill response effort in the Gulf of Mexico.

During our site visits, we questioned personnel about processes they used within their offices to
plan work and determine resource needs. When available, we also reviewed documentation
relating to workload analysis.

11-P-0630                                                                                       20
In the early stages of our audit, OB provided us with three examples in which EPA completed a
process to determine specific labor needs to complete estimated work activities. One of those
examples was an effort Region 8 led to determine resources needed by each region related to
energy permits. The other two examples involved resource estimates to complete major projects
relating to mountaintop mining and the Chesapeake Bay. We spoke to Regions 3 and 4 regarding
the mountaintop mining project, and Region 3 for the Chesapeake Bay project.

We also interviewed employees from entities outside EPA to obtain information relating to
workload analysis. We interviewed the Associate Administrator for OMB’s Office of Federal
Procurement Policy regarding OMB’s July 2009 memo to agencies on managing the multisector
workforce of federal employees and contractors. That OMB memo discussed workload issues.
We also spoke with personnel from the National Aeronautics and Space Administration during
the early stages of our work about its work planning processes. We reviewed documents from the
U.S. Department of State related to the workload models it uses. We also reviewed a report that
the Washington State Department of Ecology issued related to its process for analyzing workload
for state water pollution actions.




11-P-0630                                                                                    21
                                                                                               Appendix B

                    Prior GAO and EPA OIG Reports
GAO reports
Report No./date   Workload issues identified                          Effects
GAO-07-883,       EPA did not complete an overall assessment          Given the reductions in funding and
July 2007         of workload to determine resources needed           personnel, states are finding it difficult
                  by the states. From 1997 to 2006, EPA’s             to respond to new enforcement
                  regional enforcement workforce was reduced          requirements in the Clean Water Act,
                  by about 5 percent.                                 Clean Air Act, and Resource
                                                                      Conservation and Recovery Act. EPA
                                                                      information on the workload and
                                                                      staffing needs of its regions and the
                                                                      states is incomplete and, thus, it is
                                                                      not possible with existing data to
                                                                      determine their overall capacity to
                                                                      meet their enforcement
                                                                      responsibilities.
GAO-09-434,       EPA’s process for budgeting and allocating          EPA cannot assure that its resource
March 2009        resources does not fully consider the               allocation is optimal.
                  Agency’s current workload. In preparing
                  requests for funding and staffing, EPA makes
                  incremental adjustments, largely based on an
                  antiquated workforce planning system that
                  does not reflect a bottom-up review of the
                  nature or distribution of the current workload.
GAO-10-413,       EPA has not comprehensively analyzed its            EPA cannot assure that its resource
March 2010        workload and workforce since the late 1980s         allocation is optimal.
                  to determine the optimal numbers and
                  distribution of staff Agency-wide.


EPA OIG reports
Report No./date   Workload issues identified                        Effects
2005-P-00006,     Office of Acquisition Management needs to         OAM does not have the data to
February 2005     complete workload and workforce analysis          measure its progress toward achieving
                  to identify FTEs and skill gaps.                  its vision of being the preferred business
                                                                    partner for all EPA contracts.
2005-P-00017,     EPA’s management tools and dispersion of          EPA cannot assure that Brownfields
June 2005         authority for Brownfields prevent the             program costs are accurately
                  Agency from effectively allocating, utilizing,    determined, that its staff is pursuing the
                  and accounting for staff resources. Staff is      best actions to achieve program goals,
                  either under- or overutilized and staffing        or that the program is spending
                  models are outdated due to incomplete             resources efficiently and effectively.
                  workload assumptions.
11-P-0031,        EPA’s policies and procedures do not              EPA cannot demonstrate that it has the
December 2010     require that employment levels be based           right number of resources to accomplish
                  on workload.                                      its mission.



11-P-0630                                                                                                    22
                                                                                       Appendix C

                                 Agency Response

MEMORANDUM

SUBJECT:	      EPA’s Comments on the Office of Inspector General (OIG) Draft Report “EPA
               Needs Workload Data to Better Justify Future Workforce Levels” Project Number
               2010-1211

FROM:          Barbara J. Bennett /s/ August 9, 2011
               Chief Financial Officer

TO:            Arthur A. Elkins, Jr.
               Inspector General

Below are EPA’s written comments on the Office of Inspector General Draft Report “EPA
Needs Workload Data to Better Justify Future Workforce Levels”.

Thank you for agreeing to some direct discussions about workload recommendations in this and
related OIG reports. Our conversations helped connect common threads from different reports
and provided a higher level perspective on the challenges involved in finding a balanced
approach to the workload/workforce allocation issue. These helped inform Agency-level
workload discussions at the Executive Management Council (EMC) and Budget Forum last
month.

At these meetings, Regions 1 and 6 presented the results of their air and water pilot projects,
which they developed over the last few months. Their experience showed that workload
methodologies can be designed for some of EPA’s functions but that they require a significant
level of Subject Matter Expert (SME) time and effort to develop due to highly variable inputs
and outputs, levels of state participation, process data needs, etc. During discussions managers
expressed concerns that EPA does not produce widgets – most EPA functions do not have
clearly defined and measurable inputs and outputs, making it extremely challenging and
potentially costly to develop practical workload methodologies that would provide actionable
results.

Based on these discussions, the Deputy Administrator asked Agency managers to continue
workload efforts but aim for a “medium” level of detail, possibly targeting certain core work,
and to strive for less resource intensive approaches. OCFO implemented this direction by
including this language in recent budget guidance to the Agency:

       “Thanks again to Regions 6 and 1 for your hard work on the air and water programs
       workload analytics. Over the next few months, OCFO will work with OAR, OW and
       regions on options and an estimation process that captures more detail than the 2010
       managers’ survey but less detail than the original set of analytics. In addition, this effort

11-P-0630                                                                                              23
       will consider potential core activities for review and factors that may signal workload
       shift concerns. OCFO also will consult with other offices as needed.”

The goal is to help the agency manage EPA’s resources within multiple Congressional and
Office of Management and Budget (OMB) mandates and constraints. The question is not
whether we have enough resources to meet all our obligations, but rather, how we can most
effectively use the limited resources EPA receives.

You also suggested considering population as an overarching factor. I agree that we should be
looking at more global measures as well, and suggest that we evaluate using population and other
external data such as such as land area, Gross Domestic Product (GDP), and / or certain
environmental statistics. This would help us better understand EPA’s overall workload to protect
human health and the environment, but with the understanding that these factors do not apply to
all activities.

Below is a discussion of four general points raised in the report, followed by EPA’s responses to
the IG’s recommendations. The attachment contains more specific comments

Item 1 – Quantifiable support for EPA’s budget. Page 7 states that “Without workload data,
EPA cannot determine, and quantifiably support in budget documents, the resource needs for
planned work” and page 10 states that “EPA cannot assure resources are planned or allocated in
the most efficient and effective manner.”

These statements imply that the OMB Circular A-11, Preparation, Submission and Execution of
the Budget requires complete, detailed, task level workload data. However, OMB has not
indicated that EPA fails to comply with A-11. EPA is one of the few agencies which
consistently submits it proposed budget to OMB on time every year, and definitely one of the
very few that submits its complete one thousand page submission with detailed descriptions,
charts and tables on time. Our reading of A-11 is that workload analyses are listed as just one of
the many items that an Agency should consider in developing resource requests.

Page 3 also cites OMB’s FY 2012 budget guidance which told agencies that “they were to
restructure operations by:
(1) eliminating programs that have low impact on an Agency’s mission so that resources can be
    freed up to continue investments in priority areas even as overall budgets are constrained,
(2) reengineering staffing plans and other processes to squeeze waste out of existing operations
    and produce better outcomes, and
(3) focusing management attention on high performance goals to better deliver services to the
    American people using available resources.”

In the 2012 budget guidance items 1 and 3 require informed assessments on which programs
have low impact or high impact (or potential performance) goals – not workload models. Item 2
requires informed agency planning on how to become more efficient within budget constraints.
After more than a year of participating in many difficult decision-making discussions on how to
manage resources within the Congressional and OMB limits, I can attest that Agency senior
decision-makers review a host of critical financial, performance, risk and other data to inform
tough choices about scarce resources. In designing our budget and planning processes, we have

11-P-0630                                                                                        24
to be mindful of the work we are asking of the agency and consider the cost / benefit of any
added requirements.

Item 2 - Correlation between program requests and final decisions. Page 7 states, “We
found little correlation between program office requests and OCFO’s budget recommendations.
The lack of program office workload data contributed to the differences between the offices’
proposed estimates and the FTE levels that OB approved.” This statement implies that workload
data would explain those changes.

For example, the draft OIG report cites the Region 8-led request for additional energy permitting
resources, but neglects to mention three points:
(1) Region 8’s request included both FTE to address its existing backlog and new anticipated
    permitting needs. EPA decided, given other priorities, to provide resources to address the
    permit backlog only.
(2) The initial request was made under one administration – and the final decision was made
    under another. Each administration has discretion over agency priorities and resource
    decisions.
(3) The initial Region 8 request was made when petroleum prices had dramatically jumped and
    seemed to be going higher – while the final figures were decided after prices (and thus the
    number of estimated projects) had declined considerably.

Item 3 - Federal Financial Accounting Standards Number 4. It is unclear how these
accounting standards relate to OIG’s workload planning suggestions. I would suggest removing
the reference from the report.

Item 4 – EPA acting upon previous workload analyses. The draft report offers six examples
of how EPA looked at its workload methods (grants, planning methods, research administrative
efficiencies, Superfund, contracting and workload benchmarking) and in each case writes that
EPA “did not take action”. But I believe that EPA management did take action – just not in the
direction of immediately implementing detailed workload modeling. In these cases EPA
managers decided, based on the studies, not to invest additional resources in developing detailed
models – because the studies did not indicate that the additional information generated would be
worth the cost.

Responses to Recommendations

Recommendation 1. We recommend the Chief Financial Officer conduct a pilot project
requiring EPA organizations to collect and analyze workload data on key project activities.

Agency Response: Concur in part. As discussed above we are following up on recent air and
water workload pilot projects conducted by Regions 1 and 6 and are continuing to look at how
other organizations collect and analyze workload data and use workload methodologies.

Recommendation 2. We recommend the Chief Financial Officer use information learned from
the pilot and the ongoing contracted workload study to issue guidance to EPA program offices
on:
a. how to collect and analyze workload data,

11-P-0630                                                                                      25
b. the benefits of workload analysis, and
c. how this information should be used to prepare budget requests.

Agency Response: Concur in part. We are completing the workload survey / benchmarking study
in September 2011, which includes input from over 1,000 managers, informational interviews
with other agencies that manage similar functions, and discussions with over a dozen similar
agencies about what workload tools they employ. We will also explore the use of external
variables such as population, land area, Gross Domestic Product (GDP), and/or other reliable and
available environmental or public data to help better understand major drivers for EPA’s
geographic workload.

We will use perspective(s) gained from the pilots, study, and geographic analyses to develop
intelligent, cost-effective options for strengthening planning processes. EPA’s paramount goal is
to inform decision-making and evaluations regarding how to best use increasingly limited
resources. However, OCFO cannot commit to issuing detailed guidance to the rest of the Agency
on collecting and using workload data until we have developed or found viable methodologies
for EPA’s functions.

Conclusion

Thank you for the opportunity to comment on the draft report and for agreeing to some direct
discussions. We remain committed to partnering with your staff on findings and
recommendations that help efficiently protect human health and the environmental and support
the Agency’s efforts to do so. We are always looking for innovative ideas to improve the ability
of EPA’s programs to strengthen resource stewardship while also achieving better environmental
results.

Again, I appreciate your willingness to meet with me to discuss these recommendations and how
they relate to other ongoing IG efforts. If you have questions or comments, please contact me.
Staff may wish to follow up with Carol Terris, Deputy Director, Office of Budget/OCFO at (202)
564-0533 or Hamilton Humes, Senior Advisor, Office of Budget/OCFO at (202) 564-2835.

Attachment

cc:
  Maryann Froehlich, Deputy Chief Financial Officer
  Josh Baylson, Associate Chief Financial Officer
  David Bloom, Director, Office of Budget
  Carol Terris, Deputy Director, Office of Budget
  Kimberly Dubbs,
  Barbara Freggens,
  Hamilton Humes,
  Diane Kelty




11-P-0630                                                                                      26
Attachment: EPA’s Specific Comments to OIG Draft Report “EPA Needs Workload Data
             to Better Justify Future Workforce Levels” Project Number 2010-1211

Below are some specific comments about the Draft Report “EPA Needs Workload Data to Better
Justify Future Workforce Levels” Project Number 2010-1211 in the order that they appeared in
the report.

Specific Comments

Page 1, footnotes 1 and 2.
	 Replace “EPA” with “one”. Using EPA as the subject implies that EPA chose not to use a
   commonly accepted definition, while the report acknowledges there is “no one exact
   definition of workload” and, thus, no definition of workload modeling.

Page 2.
	 Suggest recognizing Government Performance and Results Act (GPRA) Modernization Act,
   enacted in January 2011 at end of the OPAA paragraph.

Page 3, 1st paragraph.
	 Add “because the results were not implementable and one study is not yet completed” “after
   “assessments”.

Page 5, Prior GAO and OIG Audit Reports.
	 The summary of the audit reports implies that EPA concurred with all the recommendations
   and analyses presented in these reports, which isn’t the case. EPA managers did not believe
   that it was a cost-effective to invest resources to implement many of the recommendations
   contained in the reports.

Page 6, 1st paragraph.
	 Suggest recognizing that some EPA offices do conduct regular workload analysis, e.g.,
   FFRRO, and that some EPA offices do cost accounting of time for cost recovery purposes.

	 The statement "EPA's Office of Budget must base budget decision primarily on subjective
   justifications at a time when budgets continue to tighten and data-driven decisions are
   needed” is misleading. Agency resource allocation decisions are made based on a
   comprehensive assessment of the Agency's priorities as aligned with the Strategic Plan, with
   large amounts of input from program officials and assessment of performance results as well
   as consideration of Administrator and Administration priorities and of course OMB and
   Congressional decisions. This analysis includes looking at the FTE (or workforce) used by
   particular programs and organizations.

Page 8
	 1st paragraph, first sentence. Add “some” before EPA and “water” after EPA. These specific
   examples of water-related data are not necessarily transferrable to all Water programs let
   alone all of EPA’s programs, e.g., research, air, etc.


11-P-0630                                                                                     27
	 1st paragraph. Delete Region 4 system example and revise remaining paragraph to refer to a
   single system example rather than two. Since the Region 4 system “has been in use for about
   a year”, it likely did not inform the FY 2011 FTE estimates which would have been
   developed largely in 2009 for the FY 2011 President’s Budget.

	 Last sentence: Suggest adding “EPA advised that” before “while”.

Page 9, 2nd paragraph.
	 Add to last sentence: “…and promoting work sharing among regional offices could be a
   viable alternative.”

Page 10,
	 1st paragraph, next to last sentence: Replace “each” with “most.” Some program/projects,
   such as STAG grants, do not include EPA personnel costs.

	 1st paragraph’s description that EPA currently tracks cost for about 140 program/projects
   understates the level of detail with which the financial systems track EPA costs. In addition
   to the 140 program projects, financial and other systems capture significant additional detail.
   First of all most program projects are broken out by National Program Office (NPM) and
   Region, which frequently means up to 23 pieces. Second, most program projects are broken
   out by Object Class (salaries, contracts, grants, etc.) which means up to 8 pieces. Budget
   systems also must capture IT coding (mandated by OMB) that track how much money in
   certain programs is designated for particular IT projects. BAS (the Budget Automation
   System) also captures estimated budgets for many specific items requested by Congress, such
   as earmarks. Payroll and financial systems must also track Superfund site-specific charging,
   as well as pesticide fees charging. Superfund site-specific for potential payment by
   Potentially Responsible Parties (PRPs) and the pesticide fees for charging to reimbursable
   agreements. Overall these examples of the many financial and programmatic categories of
   data tracked means that EPA’s budget is actually divided and tracking in thousands of pieces.
   EPA’s tracking is so detailed that OCFO has no more characters in its accounting codes that
   it can use to track different items.

	 2nd paragraph, first sentence: Add “EPA” before “resources”.

	 2nd paragraph, last sentence: After “required,” add “and recoverable from responsible
   parties.”

	 2nd paragraph general. This paragraph implies EPA is ignoring its financial duty by not
   doing detailed tracking like it did for Deep Water Horizon. However, there is another
   interpretation, EPA implements this type of tracking when needed and carefully judges the
   costs and benefits of tracking additional items. In this case, EPA acted promptly to address
   the need to put in place additional tracking so costs could be recovered from the responsible
   parties for the disaster rather than have the American taxpayer pay.

Page 11,
	 2nd paragraph states “For example, the current contract that OCFO is using is designed to
   provide feedback that will broadly look at EPA as a whole from a top-down management
11-P-0630                                                                                      28
   perspective. We believe that EPA would benefit from a bottom-up approach.” These
   sentences imply that the workload benchmarking did not include a bottom-up approach.
   However the managers’ survey obtained direct input from over 1,000 front-line managers
   whose staff work in the six functions identified. The survey was specifically designed to
   provide bottom-up insight on level of effort, work drivers, and work tasks.

Page 14,
	 2nd bullet “In a complex organization, such as EPA a single, standard workload model in not
   practical or feasible. Rather local units should adopt an approach that fits their mission and
   operations.” I agree with this statement - huge, complicated workload models that try to
   foresee every conceivable analytical need are neither practical nor feasible. EPA’s present
   budget process permits local units to use tracking and workload estimation tools. However,
   there is some risk in using locally developed workload methodologies for Agency-level
   decision-making if they are not comparable.

	 Comparison to State Department. EPA’s workload benchmarking exercise includes looking
   at specific comparable agencies. For each of the 6 functions, the contractor, working with
   EPA experts, carefully assessed which other agencies would provide the best comparison to
   EPA. This includes looking at the State Department because the IG suggested it, but I would
   emphasize that the State Department is very dis-similar to EPA in many ways -- it is an
   international organization with a very different mission, it is not a scientific, regulatory, nr
   enforcement agency, it does not issue permits, conduct environmental monitoring, etc.

	 Comparison to Washington State. This example does not provide a case for detailed
   workload models. It was a two-step analysis in a particular media and in a particular state –
   and not a model used for ongoing budget analysis.

Page 16.
	 The Conclusion states that “Organizations of various sizes, including some larger than EPA,
   in both the private and public sectors have successfully used workload modeling for many
   years, to justify their decision on how resources are allocated and used.” EPA does not
   dispute that many organizations use detailed workload models for planning resources needed
   for specific, clearly defined and repeatable tasks. What is at issue is whether EPA can cost–
   effectively adapt existing models or develop new models for the many different functions
   and processes that EPA manages. EPA is looking for workable models and has piloted efforts
   in Region 1 and 6, but recognizes that it is difficult and expensive to design useful workload
   models for complex, non-repeatable and evolving tasks. In its pilot, Region 6 reported that
   staff devoted 160 hours to analyze 35 FTE.  Extrapolated for EPA as whole that would 
   require 37 FTE and nearly $5 M in just payroll costs.  As financial managers, we must the
   weigh the costs of developing such systems with the benefits to informing decision-making.




11-P-0630                                                                                          29
                                                                             Appendix D

                                   Distribution
Office of the Administrator
Assistant Administrator for Administration and Resources Management
Chief Financial Officer
Director, Office of Budget, Office of the Chief Financial Officer
Director, Office of Human Resources, Office of Administration and Resources Management
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Followup Coordinator, Office of the Chief Financial Officer
Audit Followup Coordinator, Office of Administration and Resources Management




11-P-0630                                                                                30
